FY 2011 PERFORMANCE REPORT




    Social Security Administration
    Office of the Inspector General
                  Table of Contents


Executive Summary…………………………………………………..              1

Performance Results……………………………………….…………             2

Performance Discussion and Analysis ……………………….………   3

    Goal 1 – Impact ………………………………………………..            3

    Goal 2 – Value ………………………………………………… 5

    Goal 3 – People ………………………………………………... 8

Historical Comparison………………………………………………… 10
                 MISSION STATEMENT



By conducting independent and objective audits, evaluations, and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste, and abuse. We
  provide timely, useful, and reliable information and advice to
      Administration officials, the Congress, and the public.




                  VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
   prevent and deter fraud, waste, and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                          EXECUTIVE SUMMARY


This 2011 Performance Report focuses on the Office of the Inspector General’s (OIG) results for
the first year of our Fiscal Year (FY) 2011 – 2015 Strategic Plan. We evaluate our progress
using 15 performance measures determined by a framework of three general goals: Impact,
Value, and People. For FY 2011, we successfully met 14 out of 15 performance measures.

The first of our three goals focuses on the impact we have on SSA’s programs and operations.
During FY 2011, our investigators ensured that 93 percent of all cases opened during the fiscal
year directly related to improper payments within SSA’s Title II and Title XVI Programs. Our
auditors also had significant impact by achieving a 5-year implementation rate of 89 percent for
accepted recommendations aimed at improving the integrity, efficiency, and effectiveness of
SSA. Two of the strategies we used to achieve these goals are prioritizing investigations and
promoting cross-component communications on potential programmatic and operational
vulnerabilities.

The second goal reflects the value we provide to SSA, the Congress, and the American public by
delivering timely and reliable products and services. For FY 2011, we generated a positive return
of $30 for every tax dollar invested. Our Office of External Relations demonstrates continued
value and service to the Congress and the American public by responding to 96 percent of
constituent-based congressional inquiries within 21 days.

The third goal includes strategies and self-measuring goals to enhance the work experience of our
people, who are the foundation of the OIG organization. During FY 2011, 99 percent of our
employees received 40 hours or more of appropriate developmental and skill enhancement
training. This demonstrates our goal to promote a skilled, motivated, and diverse workforce in a
positive and rewarding work environment. Using our strategy to identify assignment interests
and developmental needs of all employees helped achieve this goal.

We did not successfully meet one performance measure in FY 2011. Our annual acceptance rate
of legislative, policy, and regulatory recommendations by SSA and/or the Congress (included in
proposed legislation) was 85 percent, 3 percent below our 88-percent goal. Of the 274
recommendations we submitted during this period that have a management decision, SSA agreed
with 234. External factors such as budget constraints, SSA’s ability to implement
recommendations, congressional and SSA priorities, and other mandates can affect the
achievement of OIG strategic goals. We will continue to strive for improvement and to produce
products valued by SSA and the Congress.

SSA OIG remains committed to achieving our goals. By conducting independent and objective
audits, evaluations, and investigations, we inspire public confidence in the integrity and security
of SSA’s programs and operations and protect them against fraud, waste, and abuse.




November 2011                   SSA OIG FY 2011 Performance Report                  Page 1
                                       PERFORMANCE RESULTS


                                                                                             GOALS
GOAL                       DESCRIPTION                                TARGET RESULT       MET    NOT
                                                                                                 MET
                                                    IMPACT
       Maintain an annual acceptance rate of at least                                             X
 1.1                                                                   88%     85%
       88 percent for all audit recommendations.
       Achieve a 5-year average implementation rate of
       85 percent for accepted recommendations aimed at
 1.2                                                                   85%     89%            X
       improving the integrity, efficiency, and effectiveness of
       SSA.
       Ensure that at least 80 percent of all cases opened during
 1.3   the last fiscal year directly relate to improper payments       80%     93%            X
       within SSA’s Title II and Title XVI Programs.
       Achieve a successful conclusion on at least 75 percent of
 1.4   all Title II and Title XVI cases closed during the fiscal       75%     87%            X
       year.
                                                     VALUE
       Generate a positive return for every dollar invested in
 2.1   OIG activities that places us in the top 10 percent of all      10%     10%            X
       OIGs for return on investment.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                                   90%     96%            X
       received within 45 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                                   75%     89%            X
       cases within 180 days.
       Respond to 95 percent of constituent-based congressional
 2.4                                                                   95%     96%            X
       inquiries within 21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                                   90%     91%            X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive external user assessment rating of
 2.6                                                                   85%     93%            X
       85 percent for product-service quality.
       Issue 85 percent of final audit reports within 1 year of the
 2.7                                                                   85%     90%            X
       entrance conference with SSA.
       Complete 85 percent of requests for legal advice and
 2.8                                                                   85%     99%            X
       review within 30 days.
                                                    PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.           5%     3%             X
       Conduct an annual employee job-satisfaction survey and
 3.2   implement corrective action plans to identify areas where       75%     77%            X
       improvements are needed.
       Ensure that 90 percent of OIG staff receives 40 or more
 3.3   hours of appropriate developmental and skill                    90%     99%            X
       enhancement training annually.




         November 2011                    SSA OIG FY 2011 Performance Report         Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS

This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the three general areas. We
state each goal and its associated measures, and describe the method of calculation. We
also discuss, where appropriate, why we believe we were successful or unsuccessful in
meeting our goals.


  Goal 1 – IMPACT
                Enhance the integrity, efficiency, and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits, and counsel actions to effect more efficient and
       effective SSA programs and operations.


              Maintain an annual acceptance rate of at least             FY 2011 Result
 Goal 1.1
              88 percent for all audit recommendations.                    85 Percent

We calculate this measure by dividing the number of legislative, policy, and regulatory
recommendations accepted by SSA and/or the Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2011, our annual acceptance rate was 85 percent, 3 percent below our 88-percent
goal. Of the 274 recommendations we submitted during this period that have a management
decision, SSA agreed with 234. We would have exceeded this goal if not for a single
contractor report in which SSA disagreed with 21 of the contractor’s 26 recommendations.
However, even though SSA formally disagreed with these 21 recommendations, the Agency
is acting in a manner consistent with those recommendations as it drafts its new Strategic
Plan. Hence, these results may change if SSA implements some of those
21 recommendations. If we remove all contractor report recommendations from this
calculation, our agreement increases to 94 percent.


November 2011                 SSA OIG FY 2011 Performance Report              Page 3
             Achieve a 5-year average implementation rate of
             85 percent for accepted recommendations aimed               FY 2011 Result
 Goal 1.2
             at improving the integrity, efficiency, and                   89 Percent
             effectiveness of SSA.

We calculate this measure by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2011 we are reporting the 5-year period
covering FYs 2006 through 2010. Our average implementation rate for accepted audit
recommendations was 89 percent, exceeding our 85-percent goal. During this period, SSA
implemented 1,192 of 1,346 accepted recommendations.


              Ensure that at least 80 percent of all cases
              opened during the last fiscal year directly relate       FY 2011 Result
 Goal 1.3     to improper payments within SSA’s Title II and             93 Percent
              Title XVI Programs.

We calculate this measure by dividing the total number of cases opened during the FY,
which are directly related to the Title II or Title XVI programs, by the total number of cases
opened during the FY. This performance measure relates to SSA’s Strategic Plan for FYs
2008-2013, Goal 4, Objective 1: Curb Improper Payments.

For FY 2011, of the 7,196 cases we opened, 6,688 of the cases related directly to improper
payments within SSA's Title II and Title XVI Programs. This 93-percent performance rate
exceeds our 80-percent target.


              Achieve a successful conclusion on at least
                                                                       FY 2011 Result
 Goal 1.4     75 percent of all Title II and Title XVI cases
                                                                         87 Percent
              closed during the FY.

We calculate this measure by dividing the number of closed Title II and Title XVI cases
successfully concluded during the FY by the total number of Title II and Title XVI cases
closed during the FY. A successful criminal conclusion occurs when a subject either pleads
guilty or is convicted, or accepts pre-trial diversion or probation before judgment. A
successful civil conclusion occurs when a subject either pleads guilty or is convicted, or
when the Office of Counsel to the Inspector General (OCIG) accepts a CMP referral
resulting from our Office of Investigations’ (OI) casework. A successful administrative
conclusion occurs when SSA denies, terminates, suspends, recovers, or reduces a benefit; or
removes a representative payee, based on an OI investigation.

For FY 2011, of the 6,554 Title II and Title XVI cases we closed, 5,689 had a successful
conclusion. This 87-percent performance rate exceeds our 75-percent target.

November 2011                 SSA OIG FY 2011 Performance Report             Page 4
   Goal 2 – VALUE
 Provide quality products and services of value in a timely manner to Congress, SSA,
 and other key decision-makers while sustaining a positive return for each tax dollar
                              invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

              Generate a positive return for every dollar
              invested in OIG activities that places us in the       FY 2011 Result
 Goal 2.1
              top 10 percent of all OIGs for return on                 10 Percent
              investment.

We calculate this measure by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period. We compare this
figure with the return on investment of other OIGs (the total monetary accomplishments of
OIGs who are members of the Council of the Inspectors General on Integrity and Efficiency
(CIGIE) divided by the total budget appropriations of member OIGs).

Based on the monetary results available at the time of this Report’s release, we placed
seventh highest of all OIGs for return on investment. For FY 2011, we generated a return of
$30 for every dollar invested in us by the taxpayer. This rate of return was bolstered by 3
audit reports entitled, Follow-up: Childhood Continuing Disability Reviews and Age 18
Redeterminations (A-01-11-11118); Supplemental Security Income Recipients with
Unreported Real Property (A-02-09-29025); and Debt Collection Activities in the
Supplemental Security Income Program (A-07-10-20139). In these reports, we identified
over $1.3 billion in Questioned Costs and over $1 billion in Funds put to Better Use.




November 2011                 SSA OIG FY 2011 Performance Report          Page 5
             Evaluate and respond to 90 percent of all                FY 2011 Result
 Goal 2.2
             allegations received within 45 days.                       96 Percent

We calculate this measure by dividing the total number of allegations closed or referred
within 45 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2011, we evaluated and responded to 96 percent of all allegations received within
45 days. Of the 107,971 allegations closed or referred during the FY, we closed or referred
103,652 allegations within 45 days.

             Complete investigative fieldwork on 75 percent           FY 2011 Result
 Goal 2.3
             of all cases within 180 days.                              89 Percent

We calculate this measure by dividing the total number of investigations closed or referred
for prosecution, CMP, SSA, or other State or Federal agency action within 180 days during
the FY by the total investigations closed or referred during the FY.

For FY 2011, we surpassed our 75-percent goal with an 89-percent rating. We closed or
referred a total of 7,167 investigations during the FY. Of these, we closed or referred
6,346 cases for action within 180 days.


             Respond to 95 percent of congressional                   FY 2011 Result
 Goal 2.4
             requests within 21 days.                                   96 Percent

We calculate this measure by dividing the total congressional requests responded to within
21 days during the FY by the total number of congressional requests responded to during
the FY. Processing days are the days elapsed from receipt of a congressional request to the
date of a response.

For FY 2011, we responded to 53 (96 percent) of 55 congressional inquiries within 21 days.




November 2011               SSA OIG FY 2011 Performance Report             Page 6
              Take action on 90 percent of Civil Monetary
                                                                        FY 2011 Result
 Goal 2.5     Penalty (CMP) subjects within 30 days of
                                                                          91 Percent
              receipt.

We calculate this measure by dividing the total number of CMP subjects against whom
initial action was taken within 30 days of receipt by OCIG during the FY, by the total
number of CMP subjects where action was taken during the FY. Initial actions are defined
as sending a letter to the subject either stating an intention to pursue a CMP; or indicating
that a CMP will not be proposed at this time, and directing the subject to SSA to make
arrangements for repayment or other actions.

For FY 2011, we took action within 30 days on 1,854 (91 percent) of 2,044 CMP subjects.




              Achieve a positive external user assessment               FY 2011 Result
 Goal 2.6
              rating of 85 percent for product-service quality.           93 Percent

The OIG’s Office of Quality Assurance and Professional Responsibility, during each
Quality Assurance Review, ask external customers to rate their level of satisfaction with the
quality of OIG products and services. Recipients and users of OIG products and services
include SSA and other Government entities, such as the Congress, Offices of U.S.
Attorneys, and external law enforcement agencies. This rating, measured using a five-tier
scale, is averaged for each Quality Assurance Review conducted during the Fiscal Year, and
then translated into a percentage, with 85 percent indicating satisfaction.

For FY 2011, we achieved a 93-percent rating, exceeding our goal of 85 percent.


              Issue 85 percent of final audit reports within            FY 2011 Result
 Goal 2.7
              1 year of the entrance conference with SSA.                 90 Percent

We calculate this measure by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2011, our office achieved a 90-percent rating, exceeding our goal of 78 percent. We
issued 99 of 110 reports during the FY within 1 year of their respective entrance
conferences.




November 2011                SSA OIG FY 2011 Performance Report             Page 7
              Complete 85 percent of requests for legal               FY 2011 Result
 Goal 2.8
              advice and review within 30 days.                         99 Percent

We calculate this measure dividing the total number of legal opinions, subpoenas, and audit
reviews completed by OCIG within 30 days of receipt during the FY by the total number of
requests for legal opinions, subpoenas, and audit reviews received during the FY.

During FY 2011, we completed 911 (99 percent) of the 916 requests for legal opinions,
subpoenas, and audit reviews within 30 days.




    Goal 3 – PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.

              Achieve an annual attrition rate of 5 percent or        FY 2011 Result
 Goal 3.1
                                  less.                                 3 Percent

We calculate this measure by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the OIG Average Workforce for the FY.

For FY 2011, there were 19 separations from the OIG’s 585.5 Average Workforce, which is
equivalent to a 3-percent attrition rate.




November 2011                 SSA OIG FY 2011 Performance Report          Page 8
              Conduct an annual employee job-satisfaction
                                                                      FY 2011 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                        77 Percent
               identify areas where improvement is needed.

OIG’s Organizational Health Committee implemented an annual employee job-satisfaction
survey beginning in FY 2006. The survey consists of 13 questions. Our goal is to have an
average score of 75 percent for the questions asked. Meeting this goal demonstrates a high
level of employee satisfaction.

For FY 2011, we achieved a 77-percent rating, exceeding our goal of 75 percent.



             Ensure that 90 percent of OIG staff receives 40
                                                                      FY 2011 Result
Goal 3.3     or more hours of appropriate developmental
                                                                        99 Percent
             and skill-enhancement training annually.

We calculate this measure by dividing the total number of OIG staff on board for the entire
FY receiving at least 40 hours of training during the FY by the total number of OIG staff on
board for the entire FY.

For FY 2011, 99 percent of our employees received 40 or more hours of appropriate
developmental and/or skill-enhancement training. Achieving this goal demonstrates our
commitment to having a capable and professional workforce. The continual development of
our employees underlies our successful performance as an organization.




November 2011               SSA OIG FY 2011 Performance Report             Page 9
                        HISTORICAL COMPARISON


                                                                             FY 2009     FY 2010
GOAL                           DESCRIPTION
                                                                            RESULTS     RESULTS
            Maintain an annual acceptance rate of at least
    1.1 1                                                                     98%         95%
            88 percent for all recommendations.
            Achieve a 5-year average implementation rate of
            85 percent for accepted recommendations aimed at
    1.2 2                                                                     88%         86%
            improving the integrity, efficiency, and effectiveness of
            SSA.
            Achieve a positive action on at least 75 percent of all
    1.3                                                                       75%         80%
            cases closed during the FY.
            Generate a positive return of $6 for every tax dollar
    2.1                                                                     $85 to $1   $48 to $1
            invested in OIG activities.
            Evaluate and respond to 90 percent of all allegations
    2.2                                                                       96%         97%
            received within 45 days.
            Complete investigative fieldwork on 75 percent of all
    2.3                                                                       89%         86%
            cases within 180 days.
            Respond to 90 percent of congressional requests within
    2.4                                                                      100%         96%
            21 days.
            Take action on 90 percent of Civil Monetary Penalty
    2.5                                                                       97%         97%
            (CMP) subjects within 30 days of receipt.
            Achieve a positive external user assessment rating of
    2.6 3                                                                     92%         95%
            85 percent for product-service quality.
            Issue 78 percent of final audit reports within 1 year of
    2.7                                                                       92%         94%
            the entrance conference with SSA.
            Complete 85 percent of requests for legal advice and
    2.8                                                                       98%         99%
            review within 30 days.
    3.1     Achieve an annual attrition rate of 5 percent or less.            4%          4%
            Conduct an annual employee job-satisfaction survey
    3.2     and implement corrective action plans to identify areas           78%         75%
            where improvement is needed.
            Ensure that 90 percent of OIG staff receives 40 or
    3.3     more hours of appropriate developmental and                       99%         98%
            skill-enhancement training annually.




1
  Goal 1.1 – FY 2010 85% changed to 88%
2
  Goal 1.2 - FY 2010 deleted “Through FY 2010” from beginning of sentence
3
  Goal 2.6 – FY 2010 deleted “Internal” and changed to just external user

November 2011                   SSA OIG FY 2011 Performance Report                  Page 10
